HHS/OIG, Audit - "Medicare Prescription Drug Subsidy Payments For Dually Eligible Beneficiaries In New Hampshire," (A-01-07-00600)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Medicare Prescription Drug
Subsidy Payments For Dually Eligible Beneficiaries In New Hampshire," (A-01-07-00600)
October 2, 2007
Complete Text of Report is available in PDF format (317 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
The objective
of our review was to determine if the population of dual beneficiaries that the
State agency submitted to CMS each month to determine its phased-down
contribution complied with CMS requirements.  From January through October 2006,
the State agencys monthly data submission of its dual beneficiary population
complied with CMS requirements and supported its phased-down contribution.
Accordingly, this report contains no recommendations.